HHS/OIG, Audit - "Review of Abortion-Related Laboratory Claims Billed as
Family Planning Under the New York State Medicaid Program," (A-02-05-01009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Abortion-Related Laboratory Claims Billed as
Family Planning Under the New York State Medicaid Program," (A-02-05-01009)
July 24, 2007
Complete
Text of Report is available in PDF format (623 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether claims for
abortion-related laboratory services for which New York State received Federal
reimbursement at the enhanced 90-percent rate of Federal financial participation
(FFP) qualified as family planning services.
The State improperly
received the enhanced 90-percent FFP rate for abortion-related laboratory
services that did not qualify as family planning services.  In our opinion, 98
of the 100 claims in our sample did not qualify as family planning services.
As a result, we estimate that the State
improperly received $3,235,640 in Federal Medicaid funds.  However, we have set
aside this amount for consideration by the Centers for Medicare & Medicaid
Services (CMS) and the State because no medical review was performed of the 100
sample claims.
We recommended that the
State (1) work with CMS to resolve $3,235,640
in set-aside claims,
(2) reemphasize to all providers that abortion-related services are not
considered family planning and the Medicaid claim form must be properly coded
when an abortion-related service is provided, (3)
strengthen systems to make use of
all appropriate claim information to properly identify abortion-related
laboratory claims that are ineligible for
Federal funding, and (4) determine the amount of Federal Medicaid funds
improperly reimbursed at the 90-percent rate for ineligible abortion-related
laboratory services and work with CMS to determine the amount to be refunded to
the Federal Government.  New York State concurred with our findings and
recommendations.